AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED
No. 19-46

UNITED STATES PATENT AND TRADEMARK OFFICE, ET AL.,

v.
BOOKING.COM B.V.

Respondent.
YORK
OFNEWYORK

)

I, Mariana Braylovskiy, being
sworn according to law and being over
18, upon my oath depose and say that:
am

1. Francisco
General
States Department of
Attorneys for Petitioners
950 Pennsylvania Avenue,
Washington, DC 20530-0001
I J V .... ..., .....u

..

(202) 514-2217
supremectbriefs@usdoj .gov

Lisa Schiavo Blatt
Williams & Connolly LLP
Attorneys for Respondent
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com

age

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Brief ofAmici Curiae Survey Scholars and Consultants in Support of
Respondent through the United States Postal Service by Express Mail, postage prepaid.
parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 19th day of February,

day of

Commission Expires
#294237

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859
www,counselpress,com

